OIG Investigative Reports, Another Former Orleans Parish School Employee Pleads Guilty in Federal Courts
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
For Immediate Release:
May 17, 2006
New releases can be found at www.usdoj.gov/usao/lae.
United States Department of Justice
U. S. Attorney, Eastern District of Louisiana  Jim
Letten
United States Attorney
500 Poydras Street, Suite B210
New Orleans, Louisiana 70130
Contact:
Kathy English (504) 680-3068
Another Former Orleans Parish School Employee Pleads Guilty in Federal Courts
NEW ORLEANS, LOUISIANA - Jim Letten, United States Attorney for the
Eastern District of Louisiana, James Bernazzani, Special Agent in Charge, Federal
Bureau of Investigation, and Patricia Vangilder, Special Agent in Charge, U.
S. Department of Education, Office of Inspector General, announced today that
TRYNITHA FULTON, age 27, pled guilty to federal felonies involving fraud
and kickbacks in the Orleans Parish school system. FULTON pled guilty
before U. S. District Judge Stanwood Duval to violations of Title 18, United
States Code, Section 1951, the Hobbs Act and Hobbs Act Conspiracy. Each count
carries a maximum statutory penalty of twenty (20) years incarceration.
The former employee of the Orleans Parish school system was charged with engaging
in a kickback scheme whereby teachers, secretaries and para-educators received
illicit monies they did not earn in the form of fraudulent payments for class
hours not actually worked. In return for these illegal monies, the employees
would and did kick back a portion of the amount of the illegal payments. The
indictment charged that Fulton received approximately $2,660.00 of school system
money in the extortion scheme. According to a plea letter filed in court, Fulton
is expected to offer cooperation
FULTON was indicted by a Federal Grand Jury in December, 2004, along
with three other defendants, Debra Harrison, Drena Clay and John Baker, Jr.
Baker pled guilty on April 6, 2006 and is scheduled to be sentenced on July
12, 2006. Harrison and Clay are set for jury trial on July 31, 2006.
This brings the number of guilty pleas in the Orleans Parish School System
investigation to twenty (20).
United States Attorney Jim Letten said, "Today's guilty plea, which represents
the twentieth consecutive felony conviction arising out of this ongoing anti-corruption
investigation into the management of the Orleans Parish School System, should
serve as ample evidence that we are committed to ferreting out corruption wherever
it exists and rebuilding this City. Indeed, the U. S. Attorney's Office, along
with our law enforcement partners, remains dedicated to establishing and maintaining
a functional zero tolerance for corruption."
In a separate case, it was also announced that JUAWANNE SCOTT, age 33,
was sentenced by U. S. District Judge Ginger Berrigan to ten (10) months incarceration
and ordered to pay restitution in the amount of $39,000, as a result of her
guilty plea for conspiracy to commit bank larceny and bank larceny involving
the Orleans Public School Federal Credit Union. SCOTT, along with two
other employees of the credit union, Sherry Wilkerson and Angela Williams, withdrew
monies from dormant customer accounts and deposited the monies into their own
accounts. They also processed checks they had written on their personal accounts
without debiting their personal accounts.
Sherry Wilkerson and Angela Williams pled guilty on April 27, 2005 and are
scheduled to be sentenced by Judge Berrigan on May 24, 2006.
These cases were investigated by Special Agents of the Federal Bureau of Investigatoin
assigned to the Public Corruption Squad, along with agents from the U. S. Department
of Education, Office of Inspector General.
These cases were prosecuted by Assistant United States Attorneys Carter K.
D. Guice, Jr. and G. Dall Kammer of the Financial Crimes Unit, who will continue
conducting this important corruption investigation
Top
Printable view
Share this page
Last Modified: 05/22/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov